CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amici Curiae The Liberal Gun Club and
Commonwealth Second Amendment in Support of
Petitioners in 20-843, New York State Rifle & Pistol
Association, Inc., et al. v. Kevin P. Bruen, in His
Official Capacity as Acting Superintendent of New
York State Police, et al. were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day and e-mail service to the following parties
listed below, this 20th day of July, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara.underwood@ag.ny.gov
(212) 416-8016
Counsel for Respondents

David D. Jensen
Counsel of Record
David Jensen PLLC
33 Henry Street
Beacon, New York 12508
(212) 380-6615
david@djensenpllc.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notary Public
[seal]

